Nos. 19-368 & 19-369

In the Supreme Court of the Anited States

FORD MOTOR COMPANY,

Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.
FORD MOTOR COMPANY,
Petitioner,
v.
ADAM BANDEMER,
Respondent.

On Writs of Certiorari to the
Supreme Court of Montana and Minnesota

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for Amicus Curiae
Jonathan R. Nash in Support of Respondents contains 1,882 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Done Rak
Jonathan R. Nash

Counsel of Record

Emory University School of Law

1301 Clifton Road Northeast

Atlanta, Georgia 30322

(404) 712-1715

jnash4@emory.edu

Counsel for Amicus Curiae
Professor Jonathan R. Nash

Executed on April 2, 2020.
